Audit Report




OIG-10-001
SAFETY AND SOUNDNESS: Material Loss Review
of TeamBank, National Association
October 7, 2009




Office of
Inspector General
Department of the Treasury
Contents


Audit Report...............................................................................................           1

    Results in Brief ..........................................................................................       2

    Causes of TeamBank’s Failure ....................................................................                 3

        High-Risk Growth in CRE Concentration...................................................                      3
        Inadequate Controls Over CRE Lending ....................................................                     5
        Heavy Reliance on Non-Core Funding ......................................................                     7

    OCC Supervision of TeamBank....................................................................                   9

        OCC Did Not Appropriately Address Issues in the 2006 Examination...........                                 10
        OCC’s 2007 Quarterly Monitoring and 2008 Examination Missed
          Critical Issues ..................................................................................        17
        OCC Transferred Supervision to Its Special Supervision Division and
          Appropriately Used Enforcement Action and PCA .................................                           22
        OCC Lessons-Learned Review ................................................................                 23

    Recommendations .....................................................................................           24

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ....................................                    27
    Appendix     2:      Background........................................................................         30
    Appendix     3:      Glossary ............................................................................      34
    Appendix     4:      Chronology of Significant Events ..........................................                40
    Appendix     5:      OCC TeamBank Examinations and Enforcement Action ...........                               44
    Appendix     6:      Prior OIG Material Loss Review Recommendations ..................                          48
    Appendix     7:      Management Response .......................................................                50
    Appendix     8:      Major Contributors to This Report .........................................                52
    Appendix     9:      Report Distribution ..............................................................         53

Abbreviations

    ADC                       assistant deputy comptroller
    ALLL                      allowance for loan and lease losses
    CEO                       chief executive officer
    CRE                       commercial real estate
                         Material Loss Review of TeamBank, National Association                                   Page i
                         (OIG-10-001)
EIC         examiner in charge
FDIC        Federal Deposit Insurance Corporation
FHLB        Federal Home Loan Bank
IT          information technology
JAMES       Joint Audit Management Enterprise System
MRA         matter requiring attention
OIG         Treasury Office of Inspector General
OCC         Office of the Comptroller of the Currency
PCA         Prompt Corrective Action
ROE         report of examination
TFI         Team Financial, Inc. (bank holding company)




        Material Loss Review of TeamBank, National Association   Page ii
        (OIG-10-001)
                                                                           Audit
OIG
The Department of the Treasury
                                                                           Report
Office of Inspector General




                  October 7, 2009

                  John C. Dugan
                  Comptroller of the Currency

                  This report presents the results of our material loss review of the
                  failure of TeamBank, National Association, of Paola, Kansas, and of
                  the Office of the Comptroller of the Currency’s (OCC) supervision
                  of the institution. OCC closed TeamBank and appointed the Federal
                  Deposit Insurance Corporation (FDIC) as receiver on March 20,
                  2009. Section 38(k) of the Federal Deposit Insurance Act
                  mandated this review because of the magnitude of TeamBank’s
                  estimated loss to the Deposit Insurance Fund. As of September 18,
                  2009, FDIC estimated that the loss would be $98.4 million.

                  Our objectives were to determine the causes of TeamBank’s
                  failure; assess OCC’s supervision of the bank, including
                  implementation of the Prompt Corrective Action (PCA) provisions
                  of section 38; and make recommendations for preventing such a
                  loss in the future. To accomplish these objectives, we reviewed the
                  supervisory files and interviewed OCC and FDIC officials,
                  conducting fieldwork from May through July 2009. Appendix 1
                  contains a more detailed description of our material loss review
                  objectives, scope, and methodology.

                  We also include several other appendices to this report. Appendix 2
                  contains background information on TeamBank’s history and OCC’s
                  supervision processes. Appendix 3 provides a glossary of terms
                  used in this report. These terms are underlined and, in the
                  electronic version of the report on our Web site, hyperlinked to the
                  glossary. Appendix 4 contains a chronology of significant events
                  related to TeamBank’s history and OCC’s supervision of the
                  institution. Appendix 5 shows examinations of TeamBank by OCC
                  from 2005 to 2009 and the enforcement action taken by OCC

                  Material Loss Review of TeamBank, National Association        Page 1
                  (OIG-10-001)
               against TeamBank. Appendix 6 shows Treasury Office of Inspector
               General (OIG) recommendations from material loss reviews of failed
               OCC-regulated institutions completed since November 2008.


Results in Brief
               TeamBank failed primarily because its board and management did
               not provide effective oversight or establish adequate controls
               before embarking on a high-risk growth strategy with a
               concentration in commercial real estate (CRE) loans, coupled with
               its deficient underwriting and credit administration and its heavy
               reliance on non-core funding. In fact, the chief executive officer
               (CEO)/president dominated the lending function as TeamBank’s
               de facto chief credit officer. In addition, a decline in the real estate
               market exacerbated these conditions.

               OCC’s supervision did not adequately address TeamBank’s
               problems to prevent a material loss to the Deposit Insurance Fund.
               OCC did not raise significant issues to the level of matters requiring
               attention (MRA) in the 2006 examination. In addition, OCC
               examiners did not identify until 2008 that TeamBank was being
               controlled by a CEO/president with too much responsibility to
               manage the bank’s risk profile and growth strategy. Furthermore,
               OCC did not review TeamBank’s incentive compensation or bonus
               plans nor ensure that TeamBank conducted stress testing. The
               bank’s credit administration and loan supervision practices, the
               level of classified assets, and a number of risk management issues
               should have been addressed in 2007 by examiners.

               We also concluded that OCC took the appropriate actions required
               by PCA as TeamBank’s capital ratio fell to undercapitalized.

               Recommendations

               We are recommending that OCC emphasize to examiners the need
               to properly use MRAs for supervisory concerns, adequately assess
               the responsibilities of a controlling official within a bank, review
               incentive compensation and bonus plans, and ensure that banks
               conduct transactional and portfolio stress testing when appropriate.



               Material Loss Review of TeamBank, National Association             Page 2
               (OIG-10-001)
             Management Response

             In a written response, OCC stated that it continues to reinforce the
             importance of adhering to its MRA policy in numerous ways, most
             recently during a conference call with bank examiners. During that
             call, emphasis was placed on examiners following guidance on
             (a) assessing the adequacy of management resources to ensure
             they are commensurate with a bank’s risk profile and growth
             strategies and (b) incentive and compensation plans. Also, OCC
             has developed a transactional level CRE Loan Stress Workbook,
             which is available to all national banks. An additional model
             designed for CRE stress testing at the portfolio level is currently
             under development. The actions taken and planned by OCC meet
             the intent of our recommendations. OCC’s response is provided as
             appendix 7.


Causes of TeamBank’s Failure
             TeamBank’s board and management did not establish adequate
             controls before embarking on a high-risk growth strategy with a
             concentration in CRE. Deficient underwriting and credit
             administration, and a heavy reliance on non-core funding, also
             contributed to capital insufficiency and liquidity issues as
             TeamBank’s condition deteriorated to an unsustainable level.

             High-Risk Growth in CRE Concentration

             TeamBank’s serious problems occurred because it significantly
             increased CRE loans without managing the associated risks.
             Beginning in 2006, TeamBank’s board and management
             implemented a strategy to increase CRE loans, funding loan growth
             with significant borrowings from the Federal Home Loan Bank
             (FHLB) and brokered deposits.

             As noted in OCC’s 2008 report of examination (ROE), TeamBank
             management—under the direction of the CEO/president and with
             the board’s approval—continued to grow TeamBank and increase
             CRE concentration throughout 2007 and 2008, despite a
             weakened CRE market. OCC found that TeamBank’s concentration
             risk management systems were not commensurate with the


             Material Loss Review of TeamBank, National Association         Page 3
             (OIG-10-001)
                      increase in CRE concentrations and that bank management had not
                      implemented OCC guidance on this issue. 1

                      From January 1, 2006, to March 31, 2008, management increased
                      gross loans by about $131 million, or 36 percent, from
                      $366 million to $497 million. Within that portfolio, construction
                      and development loan concentrations rose from 136 percent of
                      capital to 316 percent of capital. TeamBank’s exposure as a
                      percentage of capital significantly exceeded that of its peer group,
                      as illustrated in figure 1.

                      Figure 1. TeamBank’s Construction and Development Exposure Compared to
                      That of Its Peer Group




                                     350
                                     300
                                     250
                         Percentage 200                                            Peer
                          of Capital 150
                                                                                   TeamBank
                                     100
                                      50
                                       0
                                           2005      2006      2007     1Q08


                         Source: OCC 2008 ROE.


                      OCC found that TeamBank’s board and management failed to
                      adopt adequate risk management practices to manage the
                      deteriorating asset quality associated with its CRE loans. The board
                      and management did not analyze the CRE loan concentration prior
                      to increasing the limit, provide adequate staffing for the loan area,
                      require complete credit analysis before approving loans, obtain
                      updated appraisals, or adopt an appropriate allowance for loan and
                      lease losses (ALLL) methodology that resulted in a reasonable ALLL
                      provision. All of these actions were necessary to manage

1
  As early as December 2005, OCC’s Western District had issued guidance on managing risks
associated with CREs (see appendix 4). On the national level, OCC emphasized the need for financial
institutions to implement sound concentration risk management practices before seeking significant
growth. See OCC Bulletin 2006-46, “Concentrations in Commercial Real Estate Lending, Sound Risk
Management Practices” (Dec. 6, 2006).

                      Material Loss Review of TeamBank, National Association                    Page 4
                      (OIG-10-001)
                      TeamBank’s concentration in CRE loans in a safe and sound
                      manner. When TeamBank’s CRE concentrations reached or passed
                      an established concentration limit, the board merely increased the
                      limit, as illustrated in table 1.

                      Table 1. Board-Approved Construction and Development Concentrations

                                   Date of               Concentration
                                   board meeting         limit approved
                                   7/20/2006                      150%a
                                   10/19/2006                      200%
                                   4/19/2007                       250%
                                   7/19/2007                       270%
                                   10/18/2007                      300%
                                   1/24/2008                       325%
                                   Source: TeamBank board minutes.
                                   a
                                     Even at this level, the board was already
                                   allowing a concentration about half again
                                   higher than that of its peer group (see
                                   figure 1).

                      OCC concluded that this growth in 2007 and 2008 was excessive,
                      given the risks involved and considering the way TeamBank was
                      funding the growth. In addition, a decline in the real estate market
                      exacerbated these conditions.

                      Inadequate Controls Over CRE Lending

                      Ineffective Oversight and Control by TeamBank’s Board and
                      Management

                      In the 2005 ROE, OCC encouraged TeamBank to refine its risk
                      management practices to address changing risks. The need for
                      effective risk management systems and satisfactory financial
                      performance was again emphasized in the 2006 ROE, in which
                      OCC also raised concerns about the adequacy of credit
                      administration practices. 2 Those concerns increased over time, as
                      the board and management failed to address the problems and
                      deteriorating asset quality and liquidity negatively affected capital,
                      assets, and earnings.



2
  OCC did not specifically require the bank to address these issues in the ROEs for 2005 and 2006—
that is, they were not presented as MRAs.

                      Material Loss Review of TeamBank, National Association                   Page 5
                      (OIG-10-001)
                      In the 2008 ROE, OCC concluded that TeamBank’s board,
                      CEO/president, and senior loan officer did not provide effective
                      oversight and control of the lending area for the level and
                      complexity of lending activities. 3 The bank lacked an experienced,
                      qualified senior loan officer exclusively dedicated to the lending
                      area with overall authority and responsibility to (1) ensure that
                      credit risk systems were improved, (2) supervise and hold loan
                      officers accountable, and (3) properly administer the high level of
                      problem assets. The CEO/president dominated the lending function
                      as TeamBank’s de facto chief credit officer, in addition to his other
                      duties. 4 The magnitude of his duties, particularly in a troubled
                      institution of the size of TeamBank, 5 was excessive and
                      compromised effectiveness. In addition, TeamBank’s management
                      of the lending area was fragmented, with loan officers reporting to
                      different senior officers, depending on the branch in which the loan
                      officers worked.

                      OCC also found in 2008 that TeamBank’s board and management
                      failed to

                      •   enforce risk limits,
                      •   provide adequate staffing for the loan area,
                      •   require complete credit analysis before approving loans,
                      •   ensure that loan officers periodically monitored the financial
                          condition of projects that provided the primary source of
                          repayment for CRE loans,
                      •   ensure that risk ratings were accurate,
                      •   obtain updated appraisals, and
                      •   adopt an appropriate ALLL methodology that would have
                          resulted in an adequate ALLL provision.

                      The board and management did not develop, implement, and
                      ensure adherence to a written program to improve the loan risk
                      rating function. In addition, the board did not ensure that a

3
  The CEO/president and senior loan officer resigned after the 2008 examination was completed.
4
  The CEO/president’s duties included serving as chairman and CEO of Team Financial, Inc., the holding
company that owned TeamBank; chairman, president, CEO, and member of numerous committees of
TeamBank; and director of Colorado National Bank, a national bank also owned by Team Financial, Inc.,
and that OCC closed on the same date it closed TeamBank. Appendix 2 contains additional information
on Team Financial, Inc., and Colorado National Bank.
5
  TeamBank’s assets exceeded $500 million during the periods we reviewed (see table 2).

                      Material Loss Review of TeamBank, National Association                    Page 6
                      (OIG-10-001)
                       satisfactory independent loan review program was in place to
                       detect declining credit quality issues in a timely manner, and
                       management’s monitoring of individual credit relationships was
                       weak.

                       Based on these deficiencies, OCC determined in 2008 that
                       inadequate oversight and supervision by TeamBank’s board and
                       management constituted an unsafe or unsound practice.

                       Deficient Underwriting and Credit Administration

                       TeamBank’s lax underwriting and credit administration practices
                       not only led to an excessive concentration in CRE loans, but also to
                       an increase in classified assets. 6 As discussed in the 2008 and
                       2009 ROEs, OCC identified loans for which management advanced
                       100 percent of the purchase price of land and failed to
                       appropriately monitor the progress of the projects. In addition, the
                       2008 ROE noted that the appraisal review lacked an in-depth
                       assessment of assumptions used in the appraisal process. Instead,
                       appraisal review consisted primarily of a checklist to assess
                       compliance with appraisal standards.

                       TeamBank’s system to identify problem loans was deficient and
                       unreliable. There were problems with the identification and tracking
                       of loan exceptions (deviations from the bank’s loan policy on items
                       such as the terms of a loan or the loan-to-value ratio). Loan officers
                       failed to perform global analysis on borrowers and guarantors,
                       which would have required taking into consideration key financial
                       ratios.

                       Heavy Reliance on Non-Core Funding

                       During 2007 and 2008, TeamBank relied heavily on non-core
                       funding, including $78 million in FHLB advances and $34 million in
                       brokered deposits, to fund CRE loan growth. As of March 31,
                       2008, net non-core funding was about $183 million, or 33 percent


6
 For example, during a 2008 CRE targeted examination of TeamBank, discussed later, OCC
downgraded the risk ratings of 42 percent of the credit relationships reviewed, causing TeamBank’s
adversely classified loans to increase to 96 percent of Tier 1 capital plus the ALLL, from 34 percent
when the review began.

                       Material Loss Review of TeamBank, National Association                      Page 7
                       (OIG-10-001)
                       of total deposits, considerably higher than national percentages, as
                       illustrated in figure 2.

                       Figure 2. TeamBank’s Dependence on Non-Core Funding

                        Percentage
                                                 Non-Core Funding as a Percentage of Total Deposits
                             40

                             35

                             30

                             25

                             20

                             15

                             10

                              5

                              0
                                     2004Q4        2005Q4         2006Q4       2007Q4         2008Q1


                                      National         TeamBank



                        Source: OCC 2008 ROE.

                       In 2008, TeamBank’s liquidity became critically deficient.
                       According to OCC records, one factor that affected liquidity was
                       that TeamBank incurred $33 million in losses in 2008, of which
                       approximately $31.8 million was attributed to the second half of
                       2008. Another factor that affected the bank’s liquidity was the
                       $26 million in ALLL provisions that it made for 2008, of which
                       $20 million was provided for during the second half of 2008.
                       Because of TeamBank’s concentration in CRE loans, its growing
                       asset quality problems strained liquidity. TeamBank relied heavily
                       on credit-sensitive funding and borrowing. Further affecting the
                       bank’s liquidity as its asset quality deteriorated was that its funding
                       sources became more limited. FHLB required additional collateral
                       and limited the amount TeamBank could borrow from FHLB to
                       $5 million. 7 In addition, $10 million in brokered deposits matured
                       and were withdrawn on November 30, 2008. By that time, based
                       on the capital requirement within the consent order signed on
                       September 2, 2008, TeamBank was considered to be adequately

7
 When an institution’s financial condition deteriorates, FHLB may require additional collateral for the
same advance. As a general example, for each $100 in collateral, FHLB may advance $80 in favorable
conditions, but $50 or less as conditions worsen.

                       Material Loss Review of TeamBank, National Association                          Page 8
                       (OIG-10-001)
            capitalized, which meant it could no longer accept or renew
            brokered deposits unless specifically authorized to do so by FDIC.

            In summary, board and management failed to implement adequate
            controls and manage the risks associated with the high-risk growth
            in CRE concentrations. When conditions worsened and the bank
            incurred substantial losses, non-core funding sources became
            limited (in the case of FHLB borrowings) or unavailable (in the case
            of brokered deposits). The bank became undercapitalized for PCA
            purposes, as discussed later. OCC closed TeamBank on March 20,
            2009, and appointed FDIC as receiver.


OCC Supervision of TeamBank
            OCC’s supervision of TeamBank was not adequate to prevent a
            material loss to the Deposit Insurance Fund. We believe that OCC
            should have exercised greater supervisory concern in

            •   the 2006 examination by issuing MRAs, adequately assessing
                the CEO/president and his duties, reviewing TeamBank’s
                incentive plans for executives and loan officers, and, as
                appropriate, ensuring that stress testing was performed;
            •   the 2007 quarterly reviews, to ensure that adequate credit
                administration and loan supervision practices were
                implemented; and
            •   the January 2008 examination, when the examiner in charge
                (EIC) concluded that classified assets had improved since the
                previous examination and preliminarily recommended CAMELS
                ratings of 2 for the composite rating and all component ratings.

            We concluded that OCC followed its internal requirements with
            respect to the timeliness of annual examinations of TeamBank and
            quarterly monitoring of the bank. In addition, OCC’s Special
            Supervision Division took appropriate supervisory actions after
            oversight of TeamBank was transferred to it. Furthermore, OCC
            properly took required PCA action as TeamBank’s capital levels fell.

            The following table summarizes OCC’s examinations of TeamBank
            from 2005 to 2009. Appendix 5 provides further detail on the
            results of these examinations.


            Material Loss Review of TeamBank, National Association         Page 9
            (OIG-10-001)
 Table 2. Summary of OCC TeamBank Examinations and Enforcement Action

                                                          Examination Results
                                                                                      Formal
 Date             Assets        CAMELS           No. of        No. of                 enforcement
 started          (millions)    ratings          MRAs          recommendations        action
 10/5/2005             $569     2/222222                   0                      5   None
 8/31/2006             $601     2/222222                   0                      6   None
                                                                                      Consent order
 1/22/2008             $705     4/444442                  23                      0   9/2/2008
                                                                                      Consent order
                                                                                      remained in
 1/5/2009              $670     5/555555                  1a                      0   place
Source: OCC reports of examination and call reports.
a
  The MRA in the 2009 ROE addressed areas of TeamBank’s noncompliance with the consent order, which
incorporated many of the MRAs in the 2008 ROE.


            OCC Did Not Appropriately Address Issues in the 2006
            Examination

            OCC Did Not Raise Significant Issues to MRAs

            In accordance with the OCC Comptroller’s Handbook, MRAs are
            bank practices that

            •   deviate from sound fundamental governance, internal control,
                and risk management principles, which may adversely affect the
                bank’s earnings or capital, risk profile, or reputation, if not
                addressed or
            •   result in substantive noncompliance with laws or internal
                policies or processes.

            In a memorandum to bank examiners dated July 5, 2005, OCC’s
            Senior Deputy Comptroller for Midsize/Community Bank
            Supervision addressed the matter of MRAs. It stated that issues
            identified during an examination fall into one of two categories:
            (1) issues that must be addressed, or MRAs, or (2) issues that are
            simply recommendations that more accurately describe best
            practices. It also stated that examiners should not defer listing
            weaknesses as MRAs pending bank management’s efforts to
            address them, and that MRAs require OCC follow-up and specific
            implementation efforts by bank management, whereas
            recommendations do not.


            Material Loss Review of TeamBank, National Association                                Page 10
            (OIG-10-001)
OCC’s 2006 ROE for TeamBank did not include any MRAs.
Instead, OCC presented actions to be taken by the bank as
“encouragements” or “suggestions.” We believe that three issues
identified during the 2006 examination should have been presented
as MRAs. These issues related to

•   a new independent loan review system with an acceptable
    scope,
•   completion of the exception tracking project, and
•   a newly formed appraisal review group.

TeamBank management was in the process of implementing
system enhancements to address these issues.

The OCC Assistant Deputy Comptroller (ADC) for the Kansas City
South field office at the time of the 2006 examination provided us
with the comments she made when reviewing the draft 2006 ROE
and told us that she had questioned why certain issues were not
elevated to MRAs, including the above three issues. After
discussion with the EIC, however, the ADC agreed to report the
issues as originally stated in the draft—that is, as encouragements
to management. This decision was made partly because the EIC
was considered to be very experienced and knowledgeable about
TeamBank. In our interview with the Western District Deputy
Comptroller, she indicated she had emphasized to district staff the
importance of adhering to the July 2005 memorandum by the
Senior Deputy Comptroller for Midsize/Community Bank
Supervision addressing the use of MRAs. However, there had been
a culture in the Kansas City South field office of not raising issues
to MRAs in a ROE if OCC had a good working relationship with the
bank and the bank committed to implementing OCC’s
recommendations.

The ADC stated that presenting “must-do” issues as MRAs in the
2006 ROE may have made a difference. One EIC told us that if
these issues had been MRAs in 2006, the board would have been
required to submit documentation of corrections and that OCC
might have followed up with the bank. The EIC also said that
because OCC had been dealing with TeamBank for at least
20 years and had not found any significant issues during that time,



Material Loss Review of TeamBank, National Association         Page 11
(OIG-10-001)
it had no reason to question whether TeamBank had corrected the
issues raised in the 2006 ROE.

TeamBank, however, had not addressed the encouragements in the
2006 ROE. As stated in the cause section of this report, TeamBank
did not ensure that an independent loan review system was in
place to detect declining credit quality issues in a timely manner. In
addition, appraisals were not kept up to date and the review of
appraisals lacked an in-depth assessment and consisted mainly of a
checklist to assess compliance with appraisal standards.

In a June 2007 e-mail to Kansas City South staff, the ADC
re-emphasized the importance of adhering to the July 2005
memorandum with respect to proper use of MRAs in ROEs. The
ADC stressed that “must-do” issues are to be presented as MRAs,
even when a bank (1) is implementing corrective action or (2) has
taken immediate action but the action’s effectiveness has yet to be
tested. The ADC identified this as a no-tolerance policy and stated
that any ROE in nonconformance would be returned to the EIC for
correction.

OCC Did Not Identify Until 2008 That TeamBank Was Being
Controlled by a Dominant CEO/President with Too Much
Responsibility

The Comptroller’s Handbook states that directors must provide a
clear framework of objectives and policies within which the CEO
must operate and administer the bank’s affairs. Such objectives
and policies should cover all areas. Directors may delegate certain
authority to executive officers but not the primary responsibility to
maintain the bank and its policies on a sound and legal basis. In
addition, it is the primary duty of a board of directors to select and
appoint executive officers who are qualified to administer the
bank’s affairs effectively and soundly. The board is also responsible
for removing bank officers who prove unable to meet reasonable
standards of executive ability and efficiency.

We found that the CEO/president of TeamBank dominated the
bank’s board and management and that the bank’s board failed to
act as a control to ensure the bank’s safe and sound operation.



Material Loss Review of TeamBank, National Association         Page 12
(OIG-10-001)
TeamBank’s CEO/president had held both the position of CEO and
the position of president since January 2004. He had also served
as chairman of the board at Team Financial, Inc., since May 1986
and as its CEO since September 1995. In addition, he had been a
member of the board’s loan committee and of the bank’s senior
loan committee and its asset and liability committee since 2004.
He had also joined two new committees—credit risk and
foreclosure—that were formed in 2006.

We learned from board minutes and interviews with OCC officials
that the CEO/president was responsible for promoting TeamBank’s
asset growth through an aggressive lending strategy that led to a
concentration in CRE loans. The other board members generally did
not challenge the CEO/president concerning the reasonableness and
risk of bank practices. As discussed earlier, the board approved
multiple increases in concentration limits. The board also accepted
the CEO/president’s reports on loan matters and unanimously
approved various policies with no discussion documented in the
minutes of board meetings.

In 2008, OCC concluded that the magnitude of the
CEO/president’s duties, particularly in a troubled institution of
TeamBank’s size, was excessive for any one individual and
compromised the effectiveness with which the duties could be
carried out. OCC also concluded that the CEO/president had not
exhibited the requisite skills and abilities needed to implement
appropriate controls and correct problems.

The EIC for the 2005 and 2006 examinations of TeamBank stated
that the individual was a good CEO/president, was more patient
with personnel than he needed to be, had a proactive approach to
developing people, and was a good delegator, but could assert his
opinion and “override things” when necessary. The EIC did not
consider the CEO/president to be dominant and stated that he was
well-liked and respected by the board and bank staff, particularly
the loan officers. Another EIC stated that the CEO/president
basically had been in control of the bank since 1986 and seemed
to have done an adequate job before 2008. This EIC also said that
OCC relied on the CEO/president because of his history with OCC,
the lack of problems, and his cooperation with OCC.



Material Loss Review of TeamBank, National Association        Page 13
(OIG-10-001)
                         Based on the bank’s risk profile and growth strategies in CREs, we
                         believe that OCC should have shown greater and timelier
                         skepticism of the CEO/president’s ability to manage the risk and
                         growth and of the board of director’s ability to oversee the bank. In
                         this regard, in 2006 OCC should have directed TeamBank to take
                         measures to ensure that adequate senior management resources
                         and appropriate separation of control responsibilities were in place
                         to manage its high level of risk.

                         OCC Did Not Review TeamBank’s Incentive Compensation Plan

                         According to the insider activities booklet of the Comptroller’s
                         Handbook, compensation and fees paid to insiders must serve the
                         legitimate needs of the bank, be justified for the services rendered,
                         and be reasonable in amount. Banks may rely on incentive pay to
                         attract, motivate, and retain insiders, but compensation
                         arrangements that provide incentives contrary to the safe and
                         sound operation of the institution are to be avoided. The board of
                         directors is responsible for reviewing and closely monitoring all
                         insider incentives to ensure that they do not result in any
                         unreasonable risk-taking to the bank.

                         OCC examiners are to focus on the adequacy of the bank’s policies
                         governing insider activities and the processes for monitoring
                         compliance with these policies and applicable laws. OCC also
                         requires that, when assessing a bank’s credit risk assessment,
                         examiners determine if the compensation structure for the loan
                         officers provides appropriate balance between loan/revenue
                         production, loan quality, and portfolio administration, including risk
                         identification. 8 In addition, when assessing credit, an examiner
                         should see if loan officers’ compensation is tied solely to growth or
                         volume targets. 9

                         The incentive compensation plan for TeamBank’s loan officers and
                         the bonus plan for the CEO/president, chief operating officer, and
                         chief financial officer encouraged uncontrolled growth of the
                         bank’s loan portfolio. From our review of selected TeamBank
                         personnel files and additional documentation obtained from the
                         review of bank documents, we learned that the loan officers’

8
    Comptroller’s Handbook, “Insider Activities” (March 2006).
9
    OCC publication titled “Detecting Red Flags in Board Reports” (Oct. 2003).

                         Material Loss Review of TeamBank, National Association          Page 14
                         (OIG-10-001)
incentive compensation program focused on rewarding loan officers
and senior personnel based on asset growth and/or on loan fees
generated. For example, some loan officers could make up to
30 percent of loan fee income in incentive compensation under a
plan in existence since at least 2002. In 2006, TeamBank modified
the loan officers’ incentive compensation program to allow
adjustments for subsequent loan performance. Based on the bank
documents we reviewed, this new program became effective in
January 2007. We did see evidence that adjustments were being
made for some loan officers in 2007.

In 2006 and 2007, the CEO/president, the chief operating officer,
and the chief financial officer received bonus payments of up to
50 percent of their salary based on the bank’s asset growth. For
these years, the CEO/president’s bonus payments totaled
50 percent of his salary—$131,000 in 2006 and $143,000 in
2007. These bonuses were not subject to adjustment based on
subsequent loan performance.

An EIC stated to us that she was aware that the CEO/president’s
compensation was tied to growth, but the expectation was that it
was “quality growth.” The EIC also said that the CEO/president
was being paid appropriately because he was running two banks.
She was not aware that the chief operating officer, the chief
financial officer, and loan officers received bonus payments based
on a percentage of loan growth or loan fees.

Poorly designed compensation policies can create incentives that
ultimately jeopardize a bank’s health. Therefore, we believe that
OCC should have reviewed TeamBank’s compensation incentive
plans to determine their possible effect on loans being generated
and to ensure that they did not encourage unnecessary or
excessive risk-taking. In our opinion, OCC’s examinations did not
adequately address TeamBank’s compensation policies and
practices.

OCC Did Not Ensure That TeamBank Conducted Stress Testing

According to the Comptroller’s Handbook, in stress testing, a bank
alters assumptions about one or more financial, structural, or
economic variables to determine the potential effect on the


Material Loss Review of TeamBank, National Association       Page 15
(OIG-10-001)
performance of a loan, concentration, or portfolio segment. As the
Handbook states, the issue is asking that critical “what if” question
and incorporating the resulting answers into the risk management
process. Stress testing is a risk management concept, and all
banks will derive benefits, regardless of the sophistication of their
methods, from applying this risk management concept to their
loans and portfolios.

The Comptroller’s Handbook also states that credits in significant
loan pool concentrations should be stress tested as indicators of
the strength of those pools. Based on the results of stress testing,
management can develop contingency plans for the credits or pools
that stress testing indicates are vulnerable. These plans might
include increasing supervision, limiting further advances, restricting
portfolio growth, devising exit strategies, or hedging portfolio
segments.

In a December 2005 letter, the Western District reminded its banks
that OCC encourages them to conduct CRE transactional and
portfolio stress testing. The message stated that banks should be
performing some type of stress test, including

•   at the transactional level, at both the underwriting stage and
    throughout the life of the loan;
•   on individual loans, for variables other than interest rate
    changes; and
•   for the overall CRE portfolio.

In the letter, OCC stated that it would share a transactional level
stress-testing tool with banks that did not have one.

As credit risk in TeamBank’s risk profile began to grow in 2006,
management did not implement an adequate stress testing model
to identify, measure, monitor, and control risk. OCC, however, did
not bring up the issue of stress testing in the 2006 ROE.

In 2008, OCC found that TeamBank’s management did not require
its officers to consistently include sufficient detail in the loan
presentations including risk analysis, stress testing of assumptions,
or in-depth analysis of a guarantor's financial ability. OCC
emphasized that the bank’s board needed to hold management


Material Loss Review of TeamBank, National Association         Page 16
(OIG-10-001)
accountable for implementing effective concentration risk
management practices by aggregating the results of stress testing
of individual borrowers. For example, OCC stated that a stress test
of residential development projects could note scenarios that pose
low, normal, and high vulnerability based on location, absorption,
rates, and sales price. As a concern, OCC further identified a credit
where there was no documentation of multi-variable stress testing
and the potential impact it could have on repayment.

The 2009 ROE stated that TeamBank was not consistently
conducting stress testing or sensitivity analysis of significant
credits for its non-problem loans, even though the bank had
steadily increased its CRE concentration from 2006 through the
first quarter of 2008. Although OCC does not require banks to
conduct stress testing, we believe that OCC should have more
forcefully encouraged TeamBank, in light of its increasing CRE
concentration, to conduct transactional and portfolio stress testing
in 2006.

OCC’s 2007 Quarterly Monitoring and 2008 Examination Missed
Critical Issues

OCC’s 2007 Quarterly Monitoring Did Not Ensure That TeamBank
Had Implemented Adequate Credit Administration and Loan
Supervision Practices

The Comptroller’s Handbook states that quarterly monitoring or
periodic monitoring activities are a key component of supervision
by risk. The timing of the activities is risk-based and driven by
supervisory objectives rather than predetermined calendar dates.
The objectives of periodic monitoring include

•   identifying significant (actual or potential) changes in the bank’s
    risk profile,
•   ensuring the validity of the supervisory strategy, and
•   achieving efficiencies during onsite activities.

The Comptroller’s Handbook also states that the specific objectives
of quarterly monitoring are determined by the portfolio manager in
consultation with the supervisory office and are based on


Material Loss Review of TeamBank, National Association           Page 17
(OIG-10-001)
                       knowledge of the bank’s condition and risks. 10 Depending on the
                       circumstances and the bank’s risk profile, quarterly monitoring may
                       be as limited as a brief phone call to bank management or a review
                       of the bank’s financial information. If circumstances warrant,
                       quarterly monitoring may also be more in-depth, and could include
                       a comprehensive analysis of various CAMELS components or a visit
                       to the bank. It is the joint responsibility of the supervisory office’s
                       ADC and the portfolio manager to determine the depth and breadth
                       of the activities needed to achieve supervisory objectives.

                       With respect to documenting quarterly monitoring, if the bank’s
                       risk profile or CAMELS ratings have not changed, the only required
                       documentation in OCC’s system is a statement that the monitoring
                       objectives were met and that the bank’s risk profile had not
                       changed since the prior review.

                       For the Kansas City South field office, it is the practice that the
                       portfolio manager will contact bank management and review the
                       bank financial information. We saw that this was accomplished
                       when we reviewed the OCC memorandums documenting the
                       quarterly reviews of TeamBank, which included a description of the
                       work that was performed and a brief update of the CAMELS
                       components.

                       For the first quarterly review in 2007, the EIC met with the
                       CEO/president to discuss the 2006 ROE issues and was informed
                       by the CEO/president that an outside firm had been hired to
                       conduct the independent loan reviews. The CEO/president stated
                       that TeamBank was working on the exception tracking project. 11
                       For the remainder of the quarterly reviews in 2007, the EIC stated
                       that she called the CEO/president to ask how things were going
                       and if there were any changes in the bank. The CEO/president
                       stated that there was nothing to report. The EIC went on to state
                       that no testing was performed and there was no reason to do so
                       because, based on OCC’s experience with the CEO/president, there



10
   In the majority of cases, including this one, the EIC is also the portfolio manager. The EIC for the
2008 examination was assigned to TeamBank in December 2006.
11
   As discussed earlier, the exception tracking project was one of the three issues reported in the 2006
ROE as encouragements that we believe should have been presented as an MRA.

                       Material Loss Review of TeamBank, National Association                    Page 18
                       (OIG-10-001)
was no reason to believe that TeamBank was not doing what he
stated it would do.

As discussed in the cause section, TeamBank had by 2006
engaged in high risk activities in two primary areas: (1) a large
concentration of CRE loans and (2) funding the CRE loans with
FHLB borrowings and brokered deposits. The board and
management failed to control the risks associated with the
concentration in CRE loans by not implementing appropriate
controls, concentration limits, or risk management processes
corresponding with the loan growth.

To strengthen credit administration and loan supervision in the
bank, OCC suggested in the 2006 examination that TeamBank

•   ensure the recognition of nonaccrual assets in a timely manner,
•   re-establish concentration of credit limits,
•   strengthen the required action plans on classified credits,
•   establish maximum tolerance levels by individual officers for all
    monitored exceptions, and
•   enhance the ALLL analysis.

The 2008 ROE stated that the board did not ensure that
management implemented adequate practices in pace with the
bank’s aggressive growth and the complexity of the loan portfolio.
Conditions had deteriorated so that the following were MRAs:

•   criticized assets,
•   concentration risk management,
•   credit administration practices, and
•   ALLL methodology.

As shown, OCC elevated its 2006 suggestions to MRAs in the
2008 ROE, placing increased emphasis on managing classified
credits and concentration risk. From a suggestion to enhance the
ALLL analysis in 2006, the situation evolved so that there were
serious concerns in 2008 about a faulty process that led to a
determination of noncompliance with generally accepted
accounting principles and OCC guidance, and an inadequate ALLL
balance to cover the inherent credit risk. These matters were
subsequently included in the consent order.

Material Loss Review of TeamBank, National Association         Page 19
(OIG-10-001)
OCC was aware from its quarterly reviews of the growth in CRE
loans that TeamBank was using non-core funding sources. We
believe that OCC should have conducted more in-depth quarterly
monitoring in 2007, including an onsite review, to ensure that
appropriate credit administration and loan supervision practices
were in place.

OCC’s 2008 Examination Did Not Initially Detect Serious Issues at
TeamBank

During the 2008 examination of TeamBank, which began in
January 2008, OCC examiners initially missed serious issues and
reached a preliminary result that the bank’s situation had improved
because its classified assets had decreased to 33 percent, from
40 percent reported in the 2006 examination. At that time, the EIC
recommended CAMELS ratings of 2 (composite and all
components).

Because of TeamBank’s concentration in CRE loans being over
300 percent, the ADC had concerns about the examiners’
preliminary results that classified assets had declined. As a result,
she determined that a closer look needed to be taken at the asset
quality review and deferred issuing the ROE. She then had the line
sheets for the TeamBank loans that were sampled in January 2008
independently reviewed, and put TeamBank first on the list of CRE
targeted examinations to be conducted by the Kansas City South
field office.

As a result of the ADC’s questioning of the decrease in classified
credits with the Western District Deputy Comptroller, OCC
determined that it needed to more closely review the line sheets of
the loans sampled for the asset quality review. A different EIC who
was subsequently assigned to conduct the TeamBank CRE targeted
examination found several credits during his review that needed to
be discussed with bank management, which led to a substantial
increase in classified credits. The EIC reviewed the line sheets and
accompanying documents for 13 credits and found that the
narrative and documentation for 5 of the credits did not fully
support the risk ratings and that the information for 2 of the credits
was insufficient to risk rate the credit.


Material Loss Review of TeamBank, National Association         Page 20
(OIG-10-001)
On March 31, 2008, OCC began the CRE targeted examination.
After the first week, the following risk management issues
surfaced:

•   Board minutes indicated that as the bank exceeded the
    concentration limit, the board merely raised the limit.
•   Loan officers were not monitoring the status of the projects.
•   Appraisal reviews were typically limited to checklists.
•   Inspections were not being performed on construction and
    development loans.
•   Interest was capitalized on stalled projects.
•   Feasibility studies appeared to be nonexistent or weak.

We believe the preceding risk management issues should have
been discovered earlier during the January 2008 exam. Also,
during the CRE targeted examination, OCC had significant problems
with information gathering, documentation, and bank management
disagreeing with its ratings of credits sampled.

While OCC was conducting the CRE targeted examination, the
CEO/president raised the issue of charter conversion with an EIC.
By changing its charter, TeamBank could be subject to the
supervision of a bank regulator other than OCC. The EIC told the
CEO/president that she understood but believed that other
regulators would be just as concerned about the CRE concentration
as OCC was.

As a result of the CRE targeted examination, completed in April
2008, classified assets increased to 96 percent, about three times
higher than the January 2008 percentage. The field office revised
the ROE, and in June 2008, recommended a composite rating of 4
to the Western District Supervision Review Committee. The
Committee concurred with the composite rating of 4.

To facilitate ongoing and consistent supervision, OCC generally
assigns responsibility for each national bank to a commissioned
national bank examiner, who as the EIC/portfolio manager must

•   maintain an up-to-date understanding of the risks of each
    assigned bank;

Material Loss Review of TeamBank, National Association          Page 21
(OIG-10-001)
                       •   identify risks and respond in an appropriate and expedient
                           manner;
                       •   consider the risks posed by each significant line of business
                           within the bank in determining the bank’s ratings and
                           consolidated risk assessment; and
                       •   follow up on bank management’s actions to address
                           deficiencies noted during any supervisory activity.

                       Activities performed during a supervisory cycle must be sufficient
                       in scope to assign a bank’s CAMELS composite and component
                       ratings.

                       As discussed, serious issues were not addressed in the preliminary
                       results of the full-scope onsite examination that began in January
                       2008. Upon supervisory review, OCC management required first a
                       review of line sheets and then a CRE targeted examination.
                       Although we are not making a recommendation related to the
                       conduct of the 2008 examination, we believe that in the case of
                       TeamBank, the examiners should have been more thorough earlier.

                       OCC Transferred Supervision to Its Special Supervision Division and
                       Appropriately Used Enforcement Action and PCA

                       At the conclusion of the CRE targeted examination on April 18,
                       2008, OCC had significant regulatory concerns about TeamBank,
                       noting that the bank’s growth and poor credit risk management had
                       led to its deteriorating financial condition. As a result, on April 24,
                       2008, OCC notified TeamBank that it was designated as in
                       troubled condition. 12 Following review by DSRC, OCC transferred
                       supervision of TeamBank to its Special Supervision Division, which
                       directed overall supervision of the bank from July 31, 2008, until it
                       was closed on March 20, 2009. 13



12
   Under 12 U.S.C. § 1831i, once OCC designates a bank as in troubled condition, the bank is required
to notify OCC at least 30 days before the proposed addition of any individual to the board of directors
or the employment of any individual as a senior executive officer. OCC may then issue a notice of
disapproval or remain silent on the proposal.
13
   The Special Supervision Division of the Midsize/Community Bank Supervision Department supervises
critical problem banks through rehabilitation or other resolution processes such as orderly failure
management or the sale, merger, or liquidation of such institutions. It is located at OCC headquarters in
Washington, D.C.

                       Material Loss Review of TeamBank, National Association                     Page 22
                       (OIG-10-001)
                        On September 2, 2008, TeamBank’s board agreed to enter into a
                        consent order with OCC that addressed numerous deficiencies
                        identified in the 2008 examination. The consent order required the
                        bank to address deficiencies in management, capital, asset quality,
                        and liquidity within specified time limits and to develop strategic,
                        capital, and liquidity risk management plans. As part of a capital
                        plan, TeamBank was required to achieve and maintain by
                        December 31, 2008, a Tier 1 risk-based capital ratio of 10 percent
                        and a leverage ratio of 8 percent. These ratios are higher than
                        those for the well-capitalized standard. If the bank failed to develop
                        an adequate capital plan, the consent order stated that OCC could
                        require the development of a plan to sell, merge, or liquidate it.
                        TeamBank failed to meet the mandated capital ratios by the
                        deadline.

                        As of the December 31, 2008, call report, TeamBank’s capital level
                        had fallen to undercapitalized. 14 On February 11, 2009, OCC
                        issued a PCA notice advising TeamBank that it was
                        undercapitalized and requiring it to file a capital restoration plan by
                        March 2, 2009. This plan was to address how TeamBank would
                        comply with the requirements of the September 2, 2008, consent
                        order. OCC determined that the plan, received on March 3, 2009,
                        was unacceptable because it did not contain the required
                        information.

                        We concluded that the Special Supervision Division did its best to
                        address TeamBank’s problems under the circumstances. Because
                        conditions at TeamBank had already begun to deteriorate rapidly
                        before its supervision was transferred, however, there was little
                        that the division could do to rehabilitate the bank. We also
                        concluded that OCC took appropriate enforcement action and
                        properly implemented PCA in reclassifying the bank’s capital level.

                        OCC Lessons-Learned Review

                        According to OCC headquarters officials, an internal lessons-
                        learned review of the failure of TeamBank was underway at the
                        time of our review. The purpose of the lessons-learned review is to

14
  Tier 1 capital to adjusted total assets, Tier 1 capital to risk-weighted assets, and total capital to risk-
weighted assets ratios were 4.00, 5.07, and 6.35 percent, respectively. For detail on PCA capitalization
requirements, see the definition for Prompt Corrective Action in appendix 3.

                        Material Loss Review of TeamBank, National Association                       Page 23
                        (OIG-10-001)
           assess both the causes of the failure and OCC’s supervision of the
           bank.


Recommendations
           Our material loss review of TeamBank is the fifth such review we
           have performed of a failed OCC-regulated financial institution
           during the current financial crisis. Appendix 6 lists the other four
           material loss reviews and our associated recommendations. OCC
           management agreed with the prior recommendations and has taken
           or is taking corrective actions to address them.

           As a result of our material loss review of TeamBank, we
           recommend that the Comptroller of the Currency do the following:

            1. Emphasize to examiners that matters requiring attention are to
               be issued in reports of examination in accordance with the
               criteria regarding deviations from sound management and
               noncompliance with laws or policies listed in the Comptroller’s
               Handbook.

                Management Response

                OCC agreed that it is critical for examiners to properly use
                MRAs to clearly communicate concerns and expectations to
                bank boards and management in a timely manner. OCC
                continues to reinforce the importance of adhering to its MRA
                policy in numerous ways, including quality assurance activities,
                management discussions, and, most recently, during an
                October 2, 2009, conference call with midsize and community
                bank examiners.

            2. Emphasize to examiners the need to
               a. adequately assess the responsibilities of a controlling official
                  (CEO/president, for example) managing the bank to ensure
                  that the official’s duties are commensurate with the risk
                  profile and growth strategy of the institution;




           Material Loss Review of TeamBank, National Association          Page 24
           (OIG-10-001)
     b. review incentive compensation and bonus plans for
        executives and loan officers; and
     c. ensure that banks conduct transactional and portfolio stress
        testing when appropriate.

    Management Response

    OCC agreed and stated that examiners are provided with
    guidance on (a) assessing the adequacy of management
    resources to ensure they are commensurate with a bank’s risk
    profile and growth strategies and (b) incentive and
    compensation plans. Additionally, the Senior Deputy
    Comptroller for Midsize and Community Bank Supervision and
    the Director for Special Supervision emphasized these points
    during the October 2, 2009, conference call with examiners.

    Having found that the use of portfolio stress testing and
    sensitivity analysis required by OCC policy continues to be
    challenging for many institutions, particularly community banks,
    OCC developed a transactional level CRE Loan Stress
    Workbook, which is available to all national banks on OCC’s
    National BankNet Web site. An additional model designed for
    CRE stress testing at the portfolio level is currently under
    development and will be available to national banks as soon as
    it is completed. OCC continues to use outreach and other
    activities to encourage national banks to use these tools in
    measuring and managing the level of risk in their CRE portfolios.

OIG Comment

OCC’s actions, both taken and planned, meet the intent of our
recommendations. OCC will need to establish a planned completion
date in the Department of the Treasury Joint Audit Management
Enterprise System (JAMES) for making available the model under
development for CRE stress testing at the portfolio level. It should
also be noted that the recommendations involve matters that
require ongoing management attention.




Material Loss Review of TeamBank, National Association         Page 25
(OIG-10-001)
                            * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-6512 or Maria V. Carmona, Audit
Manager, at (202) 927-6345. Major contributors to this report are
listed in appendix 8.



/s/
Michael J. Maloney
Audit Director




Material Loss Review of TeamBank, National Association      Page 26
(OIG-10-001)
                         Appendix 1
                         Objectives, Scope, and Methodology




                         We conducted this material loss review of TeamBank, National
                         Association, of Paola, Kansas, in response to our mandate under
                         section 38(k) of the Federal Deposit Insurance Act. 15 This section
                         provides that if a deposit insurance fund incurs a material loss with
                         respect to an insured depository institution, the inspector general
                         for the appropriate federal banking agency is to prepare a report to
                         the agency, which shall

                             •   ascertain why the institution’s problems resulted in a
                                 material loss to the insurance fund;
                             •   review the agency’s supervision of the institution, including
                                 its implementation of the Prompt Corrective Action
                                 provisions of section 38; and
                             •   make recommendations for preventing any such loss in the
                                 future.

                         Section 38(k) defines a loss as material if it exceeds the greater of
                         $25 million or 2 percent of the institution’s total assets. The law
                         also requires the inspector general to complete the report within
                         6 months after it becomes apparent that a material loss has been
                         incurred.

                         To accomplish our review, we conducted fieldwork at the Office of
                         the Comptroller of the Currency’s (OCC) headquarters in
                         Washington, D.C., its district office in Denver, Colorado, and its
                         Kansas City South field office in Overland Park, Kansas. We also
                         performed work at the Federal Deposit Insurance Corporation’s
                         (FDIC) Division of Resolutions and Receiverships in Dallas, Texas,
                         and interviewed its officials and those of the FDIC Division of
                         Supervision and Consumer Protection. We conducted our fieldwork
                         from May through July 2009.

                         To assess the adequacy of OCC’s supervision of TeamBank, we
                         determined (1) when OCC first identified TeamBank’s safety and
                         soundness problems, (2) the gravity of the problems, and (3) the
                         supervisory response OCC took to get the bank to correct the
                         problems. We also determined whether OCC (1) might have
                         discovered problems earlier; (2) identified and reported all the
                         problems; and (3) issued comprehensive, timely, and effective


15
     12 U.S.C. § 1831o(k).

                         Material Loss Review of TeamBank, National Association          Page 27
                         (OIG-10-001)
Appendix 1
Objectives, Scope, and Methodology




enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we performed the following work:

    •   We determined that the time period covered by our audit
        would begin with the 2005 examination and end with
        TeamBank’s failure on March 20, 2009. This period included
        two safety and soundness examinations prior to OCC’s
        identifying TeamBank as a troubled institution and assigning
        it a composite CAMELS rating of 4.

    •   We reviewed OCC supervisory files and records for
        TeamBank from 2005 through 2009. We analyzed
        examination reports, supporting workpapers, and related
        supervisory and enforcement correspondence. We performed
        these analyses to gain an understanding of the problems
        identified, the approach and methodology OCC used to
        assess the bank’s condition, and the regulatory action OCC
        used to compel bank management to address deficient
        conditions. We did not conduct an independent or separate
        detailed review of the external auditor’s work or associated
        workpapers other than those incidentally available through
        the supervisory files.

    •   We interviewed and discussed various aspects of the
        supervision of TeamBank with OCC officials, examiners, and
        an attorney to obtain their perspective on the bank’s
        condition, the scope of the examinations, and supervisory
        steps taken. We also interviewed FDIC Division of
        Supervision and Consumer Protection personnel who were
        responsible for monitoring TeamBank for federal deposit
        insurance purposes.

    •   We interviewed FDIC Division of Resolutions and
        Receiverships personnel involved in the receivership process,
        which was conducted before and after TeamBank’s closure
        and appointment of a receiver.

    •   We assessed OCC’s actions based on its internal guidance
        and the requirements of the Federal Deposit Insurance Act at
        12 U.S.C. § 1811 et seq.



Material Loss Review of TeamBank, National Association         Page 28
(OIG-10-001)
Appendix 1
Objectives, Scope, and Methodology




We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of TeamBank, National Association        Page 29
(OIG-10-001)
                       Appendix 2
                       Background




                       TeamBank History

                       TeamBank, National Association, Paola, Kansas (TeamBank), was
                       established in 1885 as the Miami County National Bank of Paola.
                       The bank’s name was changed to TeamBank in 1997. TeamBank
                       was a community bank with trust powers. In addition to its main
                       office, TeamBank had 15 branch offices in Kansas, Missouri, and
                       Nebraska. Team Financial, Inc. (TFI), a bank holding company,
                       wholly owned Team Financial Acquisition Subsidiary, Inc., which
                       wholly owned TeamBank. TFI also wholly owned Colorado National
                       Bank through an intermediate holding company. 16 TFI was publicly
                       traded on the NASDAQ stock exchange. TFI’s largest shareholder
                       was the Team Financial, Inc., Employees’ Stock Ownership Plan,
                       which owned 11.65 percent of TFI.

                       Appendix 4 contains a chronology of significant events regarding
                       TeamBank.

                       Types of Examinations Conducted by the Office of the Comptroller
                       of the Currency

                       The Office of the Comptroller of the Currency (OCC) conducts
                       various types of bank examinations, including full-scope
                       examinations. A full-scope examination is a combined examination
                       of the institution’s safety and soundness, compliance with various
                       rules and regulations, and information technology (IT) systems. The
                       safety and soundness portion of the examination includes a review
                       and evaluation of capital adequacy, asset quality, management
                       effectiveness, earnings performance, liquidity and asset/liability
                       management, and sensitivity to market risk. The IT portion of the
                       full-scope examination evaluates the overall performance of IT
                       within the institution and the institution’s ability to identify,
                       measure, monitor, and control technology-related risks. The
                       compliance portion of the examination includes an assessment of
                       how well the bank manages compliance with various consumer
                       protection regulations, such as Truth in Lending, Truth in Savings,
                       and the Bank Secrecy Act. A targeted examination is any

16
  OCC closed Colorado National Bank, Colorado Springs, Colorado, on the same day that it closed
TeamBank and appointed the Federal Deposit Insurance Corporation as receiver. The estimated
$9 million cost to the Deposit Insurance Fund resulting from the failure of Colorado National Bank did
not reach the threshold for a material loss review by our office.

                       Material Loss Review of TeamBank, National Association                    Page 30
                       (OIG-10-001)
                      Appendix 2
                      Background




                      examination that does not fulfill all the statutory requirements of a
                      full-scope examination. 17

                      The results of full-scope examinations are used to assign ratings to
                      banks. 18 OCC, like other bank regulatory agencies, uses the
                      Uniform Financial Institutions Rating System, commonly called
                      CAMELS ratings. A bank’s composite rating under CAMELS
                      integrates ratings from six component areas: capital adequacy,
                      asset quality, management, earnings, liquidity, and sensitivity to
                      market risk.

                      OCC assigns each banking organization individual CAMELS
                      component ratings and a composite rating that indicates the
                      institution’s overall condition. CAMELS composite and component
                      ratings are on a five-point scale, with 1 being the best score and
                      5 being the worst.

                      Banks with a composite rating of 1 are sound in every respect,
                      generally have components rated 1 or 2, and give no cause for
                      supervisory concern. Banks with a composite rating of 2 are
                      fundamentally sound, generally have no component rated 4 or 5,
                      and exhibit no material supervisory concerns. Banks with a
                      composite rating of 3 exhibit some degree of supervisory concern
                      in one or more component areas, generally have no component
                      with a rating of 5, and require more than normal supervision, which
                      may include formal or informal enforcement actions. Banks with a
                      composite rating of 4 exhibit unsafe and unsound practices and
                      have problems ranging from severe to critically deficient that are
                      not being satisfactorily addressed by management. Banks with a
                      composite rating of 5 exhibit extremely unsafe and unsound
                      practices or conditions, have critically deficient performance, and
                      present the greatest supervisory concern.




17
   12 U.S.C. § 1820(d) generally requires that the appropriate federal banking agency conduct a full-
scope, onsite examination of each insured depository institution at least once during each 12-month
period. However, the 12-month period may be extended to 18 months depending on the size and other
circumstances of the affected institution.
18
   Ratings may also be assigned as a result of targeted examinations, and in some cases, periodic
monitoring activities.

                      Material Loss Review of TeamBank, National Association                   Page 31
                      (OIG-10-001)
Appendix 2
Background




Types of Enforcement Actions Available to OCC

OCC uses informal and formal enforcement actions to address
violations of laws, rules, regulations, and unsafe and unsound
practices or conditions.

Informal Enforcement Actions

When a bank’s overall condition is sound but it is necessary to
obtain written commitments from its board of directors to ensure
that identified problems and weaknesses will be corrected, OCC
may use informal enforcement actions. Informal enforcement
actions provide a bank with more explicit guidance and direction
than a report of examination normally contains but are generally
not legally binding.

Informal enforcement actions include commitment letters,
memoranda of understanding, and 12 C.F.R. Part 30 safety and
soundness plans. Commitment letters and memoranda of
understanding contain specific bank commitments to take
corrective actions in response to problems or concerns identified by
OCC in its supervision of the bank. Part 30 informal enforcement
actions require the bank to submit a compliance plan for OCC
approval that outlines the steps the bank will take and timeframes
to correct identified deficiencies. Unlike formal enforcement
actions, informal actions are not disclosed to the public.

Formal Enforcement Actions

Formal enforcement actions are authorized by statute, generally
more severe, and disclosed to the public. Formal actions are also
enforceable through the assessment of civil money penalties and,
with the exception of formal agreements, through the federal court
system. Formal enforcement actions available to OCC include
consent orders, cease and desist orders, formal written
agreements, and Prompt Corrective Action directives.




Material Loss Review of TeamBank, National Association       Page 32
(OIG-10-001)
                        Appendix 2
                        Background




                        OCC Enforcement Guidelines

                        OCC policy specifies that determining the appropriate enforcement
                        action, whether informal or formal, depends on the following:

                        •   the overall condition of the bank;

                        •   the nature, extent, and severity of the bank’s problems and
                            weaknesses;

                        •   the commitment and ability of bank management to correct the
                            identified deficiencies; and

                        •   the existence of previously identified but unaddressed problems
                            or weaknesses. 19




19
     Bank Supervision Operations—Enforcement Action Policy (PPM 5310-3).

                        Material Loss Review of TeamBank, National Association       Page 33
                        (OIG-10-001)
                    Appendix 3
                    Glossary




(Adversely) classified asset        An asset rated as substandard, doubtful, and loss.
                                    Substandard assets are inadequately protected by the
                                    current worth and paying capacity of the obligor or of
                                    the collateral pledged, if any. A doubtful asset has all
                                    the weaknesses of a substandard asset with the
                                    added characteristic that the weaknesses make
                                    collection or liquidation in full questionable and
                                    improbable. A loss asset is considered uncollectible
                                    and of such little value that continuation as a bankable
                                    asset is not warranted.

Allowance for loan and              A valuation reserve established and maintained by
lease losses                        charges against the financial institution’s operating
                                    income. As a valuation reserve, it is an estimate of
                                    uncollectible amounts that is used to reduce the book
                                    value of loans and leases to the amount that is
                                    expected to be collected. These valuation allowances
                                    are established to absorb unidentified losses inherent
                                    in the institution’s overall loan and lease portfolio.

Brokered deposit                    Any deposit that is obtained, directly or indirectly,
                                    from a deposit broker. The bank solicits deposits by
                                    offering rates of interest that are significantly higher
                                    than the rates offered by other insured depository
                                    institutions in its normal market area. Under
                                    12 U.S.C. § 1831(f) and 12 C.F.R. 337.6, the use of
                                    brokered deposits is limited to well-capitalized insured
                                    depository institutions and, with a waiver from the
                                    Federal Deposit Insurance Corporation, to adequately
                                    capitalized institutions. Undercapitalized institutions
                                    are not permitted to accept brokered deposits.

Call report                         A quarterly report of income and financial condition
                                    that banks file with their regulatory agency. The
                                    contents of a call report include consolidated detailed
                                    financial information on assets, liabilities, capital, and
                                    loans to executive officers, as well as income,
                                    expenses, and changes in capital accounts.

CAMELS                              An acronym for performance rating components for
                                    financial institutions: capital adequacy, asset quality,


                    Material Loss Review of TeamBank, National Association              Page 34
                    (OIG-10-001)
                     Appendix 3
                     Glossary




                                     management, earnings, liquidity, and sensitivity to
                                     market risk. Numerical values range from 1 to 5,
                                     with 1 being the best rating and 5 being the worst.

Capital restoration plan             A plan submitted to the appropriate federal banking
                                     agency by any undercapitalized insured depository
                                     institution. A capital restoration plan specifies the
                                     steps the insured depository institution is to take to
                                     become adequately capitalized, the levels of capital to
                                     be attained during each year in which the plan is in
                                     effect, how the institution is to comply with the
                                     restrictions or requirements then in effect, the types
                                     and levels of activities in which the institution is to
                                     engage, and any other information that the federal
                                     banking agency may require.

Commercial real estate loans         Loans secured by raw land, land development, and
                                     construction. Commercial real estate includes one- to
                                     four-family residential construction, multifamily
                                     property, and nonfarm nonresidential property where
                                     the primary or a significant source of repayment is
                                     from rental income associated with the property (i.e.,
                                     loans for which 50 percent or more of the source of
                                     repayment comes from third-party, nonaffiliated,
                                     rental income) or the proceeds of the sale, refinancing,
                                     or permanent financing of the property.

Concentration (of credit)            A situation where direct, indirect, or contingent
                                     obligations exceed 25 percent of a bank's capital
                                     structure.

Concentration risk                   Risk in a loan portfolio that arises when a
                                     disproportionate number of an institution’s loans are
                                     concentrated in one or a small number of financial
                                     sectors, geographical areas, or borrowers. If loans are
                                     more broadly distributed, weaknesses confined to a
                                     small number of sectors, areas, or borrowers would
                                     pose a smaller risk to the institution’s financial health.

Consent order                        The title given by the Office of the Comptroller of the
                                     Currency (OCC) to a cease and desist order that is


                     Material Loss Review of TeamBank, National Association              Page 35
                     (OIG-10-001)
                   Appendix 3
                   Glossary




                                   entered into and becomes final through the board of
                                   directors’ execution, on behalf of the bank, of a
                                   stipulation and consent document. Its provisions are
                                   set out in article-by-article form and prescribe
                                   restrictions and corrective and remedial measures
                                   necessary to correct deficiencies or violations in the
                                   bank and return it to a safe and sound condition.

District Supervision               An OCC committee in each district that ensures that
Review Committee                   OCC bank supervision and enforcement policies are
                                   applied effectively and consistently. Each committee
                                   advises the deputy comptroller for its district on bank
                                   supervision and enforcement cases by providing
                                   recommendations on supervisory strategies and
                                   enforcement actions.

Federal Home Loan Bank             The Federal Home Loan Bank System, chartered by
                                   Congress in 1932, provides liquidity to member
                                   institutions that hold mortgages in their portfolios and
                                   facilitates the financing of mortgages by making low-
                                   cost loans, called advances, to its members. Federal
                                   Home Loan Bank (FHLB) advances are available to
                                   members with a wide variety of terms to maturity,
                                   from overnight to long term. Qualifying collateral for
                                   advances includes residential mortgages, commercial
                                   mortgages, and (for small institutions) small business
                                   and agricultural loans. Advances facilitate asset
                                   liability management of depository institutions by
                                   providing medium- and long-term instruments not
                                   available elsewhere and by setting individualized terms
                                   to maturity. All advances are collateralized. FHLBs
                                   require substantial levels of over-collateralization and
                                   can usually demand additional collateral at will.
                                   Advances are designed to prevent any possible loss to
                                   FHLBs, which also have a super lien (a lien senior or
                                   superior to all current and future liens on a property or
                                   asset) when institutions fail. To protect their position,
                                   FHLBs have a claim on any of the additional eligible
                                   collateral in the failed bank. In addition, the Federal
                                   Deposit Insurance Corporation has a regulation that



                   Material Loss Review of TeamBank, National Association            Page 36
                   (OIG-10-001)
                    Appendix 3
                    Glossary




                                    reaffirms FHLB priority, and FHLBs can demand
                                    prepayment of advances when institutions fail.

Full-scope onsite examination       Examination activities performed during the
                                    supervisory cycle that: (1) are sufficient in scope to
                                    assign or confirm a bank’s CAMELS composite and
                                    component ratings; (2) satisfy core assessment;
                                    (3) result in conclusions about a bank’s risk profile;
                                    (4) include onsite supervisory activities; and
                                    (5) generally conclude with the issuance of a report of
                                    examination.

Generally accepted                  A widely accepted set of rules, conventions,
accounting principles               standards, and procedures for reporting financial
                                    information, as established by the Financial
                                    Accounting Standards Board.

Line sheet                          A work document used by an examiner to review a
                                    bank loan. The line sheet initially contains basic
                                    information about a loan, including the original
                                    amount, the current balance, and the monthly
                                    payment. The examiner then uses the line sheet as
                                    he/she reviews the loan file, documenting his/her
                                    analysis, the disposition of the loan, and the reasons
                                    for that disposition.

Loan presentation                   A document that a loan officer prepares for a loan
                                    committee when a loan is initially approved, extended,
                                    or renewed. An informative loan presentation would
                                    include the purpose of the credit, the sources of
                                    repayment, the terms of the note, a description of the
                                    project, the strength and weaknesses of the credit,
                                    and other analysis of the project.

Matter requiring attention          A bank practice noted during an examination that
                                    deviates from sound governance, internal control, and
                                    risk management principles, which may adversely
                                    affect the bank’s earnings or capital, risk profile, or
                                    reputation if not addressed. It may also result in
                                    substantive noncompliance with laws and regulations,
                                    internal policies or processes, OCC supervisory


                    Material Loss Review of TeamBank, National Association              Page 37
                    (OIG-10-001)
                  Appendix 3
                  Glossary




                                  guidance, or conditions imposed in writing in
                                  connection with the approval of any application or
                                  other request by a bank. Matters requiring attention
                                  are not enforcement actions, but failure by a bank’s
                                  board and management to address a matter requiring
                                  attention could lead to an enforcement action.

Prompt Corrective Action          A framework of supervisory actions, set forth in
                                  12 U.S.C. § 1831o, for insured banks that are not
                                  adequately capitalized. It was intended to ensure that
                                  action is taken when an institution becomes financially
                                  troubled in order to prevent a failure or minimize
                                  resulting losses. These actions become increasingly
                                  severe as a bank falls into lower capital categories.
                                  The capital categories are well-capitalized, adequately
                                  capitalized, undercapitalized, significantly
                                  undercapitalized, and critically undercapitalized. The
                                  Prompt Corrective Action minimum requirements are
                                  as follows:
                                                         Tier 1/
                                    Total                Risk-              Tier 1/
             Capital Category       Risk-Based           Based              Leverage
                                      10% or         and 6% or           and 5% or greater
             Well Capitalizeda
                                      greater              greater
             Adequately               8% or          and 4% or           and 4% or greater
             Capitalized              greater              greater             (3% for 1-rated)
                                      Less           or    Less          or    Less than 4% (except
             Undercapitalized
                                      than 8%              than 4%             for 1-rated)
             Significantly            Less           or    Less          or    Less than 3%
             Undercapitalized         than 6%              than 3%
                                      Has a ratio of tangible equity to total assets that is equal
             Critically
                                      to or less than 2 percent. Tangible equity is defined in
             Undercapitalized
                                      12 C.F.R. 565.2(f).
             a
               To be well capitalized, a bank also cannot be subject to a higher capital requirement
             imposed by OCC.

Special mention                   An asset that has potential weaknesses that deserve
                                  management's close attention. If left uncorrected,
                                  these potential weaknesses may result in deterioration
                                  of the repayment prospects for the asset or in the
                                  institution's credit position at some future date.
                                  Special mention assets are not adversely classified



                  Material Loss Review of TeamBank, National Association                      Page 38
                  (OIG-10-001)
                   Appendix 3
                   Glossary




                                   and do not expose an institution to sufficient risk to
                                   warrant adverse classification.

Stress testing                     Analysis that estimates the effect of economic or
                                   other changes on key performance measures, such as
                                   losses, delinquencies, and profitability. Key variables
                                   used in stress testing may include interest rates, score
                                   distributions, asset values, growth rates, and
                                   unemployment rates.

Targeted examination               A bank examination that does not fulfill all of the
                                   requirements of a statutory full-scope onsite
                                   examination. Targeted examinations may focus on one
                                   particular product, function, or risk, or may cover
                                   specialty areas.

Tier 1 (capital)                   Common shareholder’s equity (common stock,
                                   surplus, and retained earnings), noncumulative
                                   perpetual preferred stock, and minority interests in the
                                   equity accounts of consolidated subsidiaries.




                   Material Loss Review of TeamBank, National Association            Page 39
                   (OIG-10-001)
                  Appendix 4
                  Chronology of Significant Events




The following chronology describes significant events in the history of TeamBank,
National Association (TeamBank), including examinations conducted and enforcement
actions taken by the Office of the Comptroller of the Currency (OCC). For additional
information on the results of examinations, including any significant safety and
soundness matters requiring attention and recommended actions, see appendix 5.

6/15/1997              The Miami County National Bank of Paola, Kansas, established
                       in 1885 and insured by the Federal Deposit Insurance
                       Corporation (FDIC) since 1934, changes its name to
                       TeamBank, National Association.

10/5/2005              OCC begins an examination with financial information as of
                       June 30, 2005. The report, with ratings of 2/222222, is
                       mailed on December 16, 2005.

12/12/2005             The Western District Deputy Comptroller sends banks a letter
                       outlining expectations for sound commercial real estate (CRE)
                       risk management practices. This includes having policy
                       guidelines appropriate to the volume and complexity of lending
                       activities, adopting and adhering to sound credit structure and
                       underwriting guidelines, and stress testing CRE transactions
                       on multiple variables and at the portfolio level.

8/31/2006              OCC begins an examination with financial information as of
                       August 31, 2006. The report, with ratings of 2/222222, is
                       mailed on November 17, 2006.

12/6/2006              OCC issues guidance on CRE concentrations, emphasizing
                       the need for financial institutions to implement sound
                       concentration risk management practices (OCC Bulletin
                       2006-46).

10/5/2007              The Western District Deputy Comptroller sends banks a letter
                       on the results of a CRE survey and the need for additional
                       progress in key areas, including CRE loan growth,
                       underwriting, and risk management. This includes reviewing
                       procedures to ensure that CRE loans are properly coded,
                       closely monitoring CRE growth, establishing policies with
                       both concentration and growth guidelines, perfecting and
                       expanding transactional level stress testing, and implementing
                       portfolio level stress testing.

                  Material Loss Review of TeamBank, National Association        Page 40
                  (OIG-10-001)
            Appendix 4
            Chronology of Significant Events




4Q 2007          Team Financial, Inc. (TFI), injects $2 million into TeamBank to
                 maintain the minimum ratios for well-capitalized status.

1Q 2008          TFI injects $1.75 million into TeamBank to offset increased
                 provisions to the allowance for loan and lease losses due to
                 significant deterioration in the loan portfolio.

1/22/2008        OCC begins an examination with financial information as of
                 December 31, 2007 and updated with information from
                 March 31, 2008. The report, with ratings of 4/444442, is
                 mailed on August 12, 2008.

3/31/2008        During the ongoing 2008 examination, OCC begins an
                 expanded review of TeamBank's CRE loan portfolio.

4/22/2008        During an exit conference, OCC advises the bank that it is
                 downgrading a number of loans. Classified assets increase to
                 96 percent of capital (from 34 percent) and special mention
                 loans are another 37 percent of capital.

4/24/2008        OCC notifies TeamBank by letter that it is designated as in
                 Troubled Condition.

5/20/2008        The chief operating officer of TeamBank reports at a board
                 meeting that the recent resignations of loan officers have
                 resulted in a $400,000 savings in salary and that current loan
                 officers are very capable of handling the extra duties assigned.

6/23/2008        The OCC Western District Supervision Review Committee
                 meets to discuss TeamBank. Decisions are made to downgrade
                 the CAMELS ratings (see 1/22/2008 entry) and to initiate a
                 consent order.

6/24/2008        TFI selects an investment banking firm to serve as financial
                 advisor to assist TFI and its board with analysis of strategic
                 alternatives, including capital planning efforts.

7/31/2008        The Western District transfers TeamBank to Special
                 Supervision due to the bank’s significant asset quality
                 problems.


            Material Loss Review of TeamBank, National Association          Page 41
            (OIG-10-001)
             Appendix 4
             Chronology of Significant Events




8/21/2008         The Federal Home Loan Bank requires TeamBank to deliver
                  acceptable collateral to secure $86 million of term loans and
                  credit line balances and $37 million of letters of credit.

9/1/2008          The chief executive officer (CEO)/president resigns from all
                  positions within TFI and its subsidiaries, including TeamBank.
                  He joined TeamBank in April 1973 and was promoted to TFI
                  chairman of the board and director in May 1986. He became
                  CEO of TFI in September 1995 and in January 2004 was
                  appointed CEO/president of TeamBank.

9/2/2008          TeamBank enters into a consent order with OCC to address
                  the numerous deficiencies identified during the 2008
                  examination. Among other things, the consent order requires
                  TeamBank to achieve, by December 31, 2008, a total risk-
                  based capital ratio of 10 percent and a leverage ratio of
                  8 percent.

11/18/2008        OCC notifies TeamBank by letter that its composite rating and
                  its liquidity component rating are being downgraded to 5,
                  resulting in CAMELS ratings of 5/444452. The downgrade
                  was based, in part, on a collateral deficiency with the Federal
                  Home Loan Bank.

12/2/2008         TFI and TeamBank board resolutions to obtain a definitive sale
                  contract for the bank no later than March 15, 2009, are
                  delivered in a letter to OCC. The boards view selling the bank
                  as the only viable option to resolving capital deficiencies.

12/31/2008        TeamBank fails to achieve the capital ratios required by
                  the consent order. The total risk-based capital ratio is
                  6.35 percent (10 percent required) and the leverage ratio
                  is 4 percent (8 percent required).

12/31/2008        TeamBank reports a net operating loss of $33 million after
                  allowance for loan and lease losses provision expense of
                  $26 million.

1/5/2009          OCC begins an examination with financial information as of
                  December 31, 2008, resulting in ratings of 5/555555.



             Material Loss Review of TeamBank, National Association           Page 42
             (OIG-10-001)
            Appendix 4
            Chronology of Significant Events




1/12/2009        FDIC begins its participation with OCC in the TeamBank
                 examination. FDIC concurs with the ratings assigned by OCC.

2/11/2009       OCC deems TeamBank undercapitalized and in accordance with
                the Prompt Corrective Action provisions in 12 U.S.C. § 1831o
                requires it to submit a capital restoration plan by March 2,
                2009.

2/26/2009        OCC notifies TeamBank during a meeting that its composite
                 and component CAMELS ratings are all 5.

3/3/2009         TeamBank submits a capital restoration plan.

3/16/2009        OCC notifies TeamBank in a letter that its capital restoration
                 plan is unacceptable because it does not contain the required
                 information. The plan did not identify how and when
                 TeamBank would raise additional capital or correct the unsafe
                 and unsound banking practices that caused its capital to
                 become impaired.

3/20/2009        OCC closes TeamBank and appoints FDIC as receiver. FDIC
                 enters into a purchase and assumption agreement with a
                 Missouri bank.




            Material Loss Review of TeamBank, National Association        Page 43
            (OIG-10-001)
                               Appendix 5
                               OCC TeamBank Examinations and Enforcement Action


                                                     Significant safety and soundness matters requiring               Formal
         Date             CAMELS       Assets        attention, corrective actions, recommendations, and              enforcement
         started          rating       (millions)    other issues cited in reports of examination 20                  action
         10/5/2005        2/222222        $569       Matters Requiring Attention                                      None
                                                     •   None identified.

                                                     Recommendations
                                                     •   Enhance the problem loan action plan.
                                                     •   Strengthen the audit and/or process for validating the
                                                         accuracy of the interest rate risk model used by the
                                                         bank.
                                                     •   Implement an appraisal review process by December 30,
                                                         2005.
                                                     •   Establish a centralized process for ordering and
                                                         reviewing the reasonableness of appraisals on
                                                         commercial real estate prior to preparation of loan
                                                         documents.
                                                     •   Obtain a certified appraisal of sufficient quality to
                                                         support the type of real estate securing a specific debt.


         8/31/2006        2/222222        $601       Matters Requiring Attention                                      None
                                                     •   None identified.

                                                     Recommendations
                                                     •   Ensure that the loan review system and exception
                                                         tracking project are implemented in a timely manner.
                                                     •   Ensure the recognition of nonaccrual assets in a timely
                                                         manner.
                                                     •   Re-establish concentration of credit limits for
                                                         construction lending and raw land purchases.
                                                     •   Strengthen the required action plans on classified credits
                                                         to include an analysis of the causative factors, establish
                                                         timeframes for implementation of the plan, and outline
                                                         alternative courses of action and triggers for rating
                                                         changes.
                                                     •   Establish maximum tolerance levels by individual officers
                                                         for all monitored exceptions and implement procedures
                                                         to ensure accountability.
                                                     •   Enhance the allowance for loan and lease losses (ALLL)
                                                         analysis by providing support for percentage allocations
                                                         used, considering unfunded commitments in the
                                                         analysis.




20
     This table includes all OCC safety and soundness examinations that began during or after 2005.



                               Material Loss Review of TeamBank, National Association                                        Page 44
                               (OIG-10-001)
               Appendix 5
               OCC TeamBank Examinations and Enforcement Action


                                    Significant safety and soundness matters requiring               Formal
Date        CAMELS     Assets       attention, corrective actions, recommendations, and              enforcement
started     rating     (millions)   other issues cited in reports of examination                     action
1/22/2008   4/444442    $705        Matters Requiring Attention                                      Consent order
                                    •   Develop a comprehensive business plan to achieve             9/2/2008
                                        financial strength and integrate a comprehensive risk
                                        management program.
                                    •   Identify areas of risk, develop systems to effectively
                                        monitor and control that risk, and update practices as
                                        needed when risk exposures change.
                                    •   Assess the ability of staff members to effectively fulfill
                                        assigned responsibilities and, as appropriate, determine
                                        how the bank will acquire the needed expertise.
                                    •   Acquire sufficient additional capital to achieve and
                                        maintain the higher minimum capital levels that will be
                                        required by the enforcement action.
                                    •   Provide management with clear and well-defined
                                        quantifiable goals and objectives, describing
                                        assumptions for significant projected income and
                                        expense components. The specific strategy should focus
                                        on improving trends in asset quality, reducing the level
                                        of concentrations of credit, reducing the bank's cost of
                                        funds, and maintaining adequate capital.
                                    •   Ensure that the plan assesses all major risk areas
                                        affecting the bank and identifies steps to control
                                        significant risks.
                                    •   Assess the skills and abilities of the president and bank
                                        staff to ensure that they are commensurate with the
                                        type and magnitude of issues and operations.
                                    •   Provide quantifiable measures for each strategy and a
                                        monitoring process to hold management accountable.
                                        Management should prepare monthly progress reports
                                        comparing actual results to defined targets for board
                                        review.
                                    •   Closely monitor variances from the established plan and
                                        hold management accountable for explaining significant
                                        deviations and identifying options to achieve targeted
                                        results.
                                    •   Develop a detailed capital plan that ensures the
                                        maintenance of sufficient capital. It should include
                                        projections for asset growth, primary sources that the
                                        bank can access to strengthen its capital structure, and
                                        a contingency plan that identifies alternative methods to
                                        the primary source.
                                    •   Immediately begin the process to hire an experienced
                                        and qualified senior loan officer with the authority to
                                        oversee all lending functions, ensure that key credit
                                        systems and controls are in place, enhance
                                        concentration risk management systems, and provide
                                        vital input on the structure and terms for new and
                                        renewed credits.
                                    •   Ensure that management decreases the level of
                                        classified and special mention assets. This includes
                                        developing and implementing an effective problem loan
                                        workout program that incorporates specific workout
                                        objectives, target dates, and performance criteria to
                                        measure progress toward problem resolution.
                                    •   Ensure that all underwriting and credit administration
                                        practices are commensurate with the level of risk in the
                                        loan portfolio.




               Material Loss Review of TeamBank, National Association                                    Page 45
               (OIG-10-001)
                Appendix 5
                OCC TeamBank Examinations and Enforcement Action


                                     Significant safety and soundness matters requiring                Formal
Date          CAMELS    Assets       attention, corrective actions, recommendations, and               enforcement
started       rating    (millions)   other issues cited in reports of examination                      action
1/22/2008                            Matters Requiring Attention
                                     •   Hold management accountable for taking prompt actions
(continued)                              to require
                                         - expanded loan presentations and analyses;
                                         - quarterly reports of project status to senior
                                           management and the loan committee;
                                         - an enhanced appraisal review process;
                                         - development, implementation, and adherence to a
                                           written program designed to improve and strengthen
                                           the loan risk rating function.
                                     •   Develop and adopt a comprehensive loan review
                                         program that assesses significant risks in the portfolio,
                                         ensures accurate risk ratings, and ensures prompt
                                         corrective action to address identified credit system
                                         weaknesses. Ensure that comprehensive reports on
                                         credit quality and administration are developed.
                                     •   Hold management accountable for implementing
                                         effective concentration risk management practices by
                                         - implementing new risk limits to guide management
                                           and requiring management to reduce the level of
                                           concentrations of credit;
                                         - enhancing the concentration report to the board
                                           with written analysis and synopsis support;
                                         - assessing the adequacy of current credit
                                           administration practices;
                                         - adopting guidelines addressing when reappraisals
                                           are required;
                                         - aggregating the results of stress testing of
                                           individual borrowers;
                                         - developing realistic concentration guidelines;
                                         - identifying actions management should take when
                                           concentrations approach or exceed limits
                                           established by the board; and
                                         - ensuring that concentration risk management is
                                           directionally consistent, e.g., as risk increases in a
                                           sector, management establishes strategies to reduce
                                           exposure or mitigate risk.
                                     •   Ensure that management improves the bank's ALLL
                                         analysis process, complies with generally accepted
                                         accounting principles and Office of the Comptroller of
                                         the Currency (OCC) Bulletin 2006-47, and ensures an
                                         adequate balance to cover the inherent credit risk.
                                     •   Ensure that the ALLL methodology is directionally
                                         consistent with the level of risk in the portfolio and that
                                         management maintains adequate supporting
                                         documentation.
                                     •   Ensure sufficient liquidity to sustain the bank's current
                                         operations and withstand any unanticipated or
                                         extraordinary demand against the bank’s funding base.
                                     •   Take immediate steps to increase more-traditional core
                                         funding.
                                     •   Develop a long-term business plan that focuses on
                                         diversification of funding sources.
                                     •   Continue to submit to OCC agreed-upon daily reports
                                         showing sources of liquidity in relation to bank needs.
                                     •   Ensure implementation of the board-approved
                                         contingency funding plan to effectively address
                                         scenarios in which increasing credit risk threatens the
                                         availability of credit-sensitive funding.


                Material Loss Review of TeamBank, National Association                                     Page 46
                (OIG-10-001)
                      Appendix 5
                      OCC TeamBank Examinations and Enforcement Action


                                            Significant safety and soundness matters requiring              Formal
 Date             CAMELS       Assets       attention, corrective actions, recommendations, and             enforcement
 started          rating       (millions)   other issues cited in reports of examination                    action
 1/5/2009         5/555555        $670      Matters Requiring Attention
                                            •   Achieve compliance with the following eight actionable
                                                articles in the consent order to return the bank to a
                                                satisfactory condition. The number of each article is
                                                shown in parentheses here and in the Other Matters
                                                section below, which provides specific information
                                                about specific points of noncompliance.
                                                - Compliance Committee (I)
                                                - Strategic Plan (II)
                                                - Capital Plan and Higher Minimums (III)
                                                - Criticized Assets (VI)
                                                - Loan Portfolio Management (VII)
                                                - External Loan Review (IX)
                                                - Concentrations of Credit (X)
                                                - Allowance for Loan and Lease Losses (XI)

                                            Other Matters
                                            •   TeamBank has not adequately implemented corrective
                                                actions required by the Matters Requiring Attention from
                                                the last report of examination related to concentration
                                                risk, credit risk management, and external loan review.
                                            •   Specific points of noncompliance with the consent order
                                                included the following:
                                                 - TeamBank did not have sufficient processes,
                                                    personnel, and control systems to adhere to all
                                                    provisions of the consent order. (I)
                                                 - TeamBank failed to adequately address the high level
                                                    of criticized assets. Problem loan management still
                                                    needed improvement. Some problem loan reports
                                                    lacked sufficient analysis of the adequacy of primary
                                                    source of repayment, documentation to adequately
                                                    explain discrepancies, analysis of current and
                                                    satisfactory credit information, and action plans for
                                                    the credit. (VI)
                                                 - Systems have not been developed to provide fully
                                                    effective monitoring of early problem loan
                                                    identification. (VII)
                                                 - Independent loan reviews by a contractor failed to
                                                    accurately risk-rate credits and did not include all
                                                    required analysis. (IX)
                                                 - The quarterly market analysis developed by
                                                    management did not adequately support the
                                                    concentration percentages. Stress testing or
                                                    sensitivity analysis of significant credits was not
                                                    consistently being done for non-problem loans. (X)
                                                 - The ALLL methodology did not fully comply with
                                                    accounting standards. (XI)

Source: OCC reports of examination and call reports.




                      Material Loss Review of TeamBank, National Association                                    Page 47
                      (OIG-10-001)
                      Appendix 6
                      Prior OIG Material Loss Review Recommendations


Since November 2008, we have completed four mandated material loss reviews of
failed banks in addition to our review of TeamBank. This appendix provides our
recommendations to the Office of the Comptroller of the Currency (OCC) resulting
from the first four reviews. OCC management concurred with the recommendations
and has taken or planned corrective actions that are responsive to the
recommendations. In certain instances, the recommendations address matters that
require ongoing OCC management and examiner attention.

 Report Title                                        Recommendations to the Comptroller
 Safety and Soundness: Material Loss Review of       Re-emphasize to examiners that examiners must
 ANB Financial, National Association, OIG-09-013     closely investigate an institution’s circumstances
 (Nov. 25, 2008)                                     and alter its supervisory plan if certain conditions
                                                     exist as specified in OCC’s Examiner’s Guide to
 OCC closed ANB Financial and appointed the          Problem Bank Identification, Rehabilitation, and
 Federal Deposit Insurance Corporation (FDIC) as     Resolution.
 receiver on May 9, 2008. At that time, FDIC
 estimated that ANB’s failure would cost the         Re-emphasize to examiners that formal action is
 Deposit Insurance Fund $214 million.                presumed warranted when certain circumstances
                                                     specified in OCC’s Enforcement Action Policy
                                                     (PPM 5310-3) exist. Examiners should also be
                                                     directed to document in the examination files the
                                                     reasons for not taking formal enforcement action
                                                     if those circumstances do exist.

                                                     Reassess guidance and examination procedures
                                                     in the Comptroller’s Handbook related to bank
                                                     use of wholesale funding with focus on heavy
                                                     reliance on brokered deposits and other nonretail
                                                     deposit funding sources for growth.

                                                     Establish in policy a “lessons-learned” process to
                                                     assess the causes of bank failures and the
                                                     supervision exercised over the institution and to
                                                     take appropriate action to address any
                                                     significant weaknesses or concerns identified.

 Safety and Soundness: Material Loss Review of       Re-emphasize to examiners the need to ensure
 First National Bank of Nevada and First Heritage    that banks take swift corrective actions in
 Bank, National Association, OIG-09-033              response to examination findings.
 (Feb. 27, 2009)
                                                     Re-emphasize to examiners OCC’s policy on the
 OCC closed First National Bank of Nevada and        preparation of supervision workpapers (i.e.,
 First Heritage Bank and appointed FDIC as           workpapers are to be clear, concise, and readily
 receiver on July 25, 2008. As of December 31,       understood by other examiners and reviewers).
 2008, FDIC had recorded an estimated loss of
 $706 million for First National Bank of Nevada
 and $33 million for First Heritage Bank.




                      Material Loss Review of TeamBank, National Association                       Page 48
                      (OIG-10-001)
                     Appendix 6
                     Prior OIG Material Loss Review Recommendations


Safety and Soundness: Material Loss Review of       Conduct a review of investments by national
National Bank of Commerce, OIG-09-042               banks for any potential high-risk concentrations
(Aug. 6, 2009)                                      and take appropriate supervisory action.

OCC closed National Bank of Commerce and            Reassess examination guidance regarding
appointed FDIC as receiver on January 16,           investment securities, including government-
2009. As of June 30, 2009, FDIC had recorded        sponsored-enterprises securities.
an estimated loss of $92.5 million because of
this failure.


Safety and Soundness: Material Loss Review          Caution examiners and their supervisors that
of Ocala National Bank, OIG-09-043                  when a bank’s condition has deteriorated, it is
(Aug. 26, 2009)                                     incumbent on examiners to properly support and
                                                    document in examination work papers the
OCC closed Ocala National Bank and appointed        CAMELS component and composite ratings
FDIC as receiver on January 30, 2009. As            assigned, including those that may not have
of August 7, 2009, FDIC had recorded an             changed from prior examinations, as well as
estimated loss of $99.6 million because of this     support a decision not to take an enforcement
failure.                                            action.

                                                    Remind examiners that it is prudent to expand
                                                    examination procedures for troubled or high-risk
                                                    banks to review the appropriateness of
                                                    (a) dividends and (b) payments to related
                                                    organizations, particularly when the dividends or
                                                    payments may benefit bank management and
                                                    board members. In this regard, OCC should
                                                    reassess, and revise as appropriate, its
                                                    examination guidance for when expanded
                                                    reviews of dividends and related organizations
                                                    should be performed.




                     Material Loss Review of TeamBank, National Association                     Page 49
                     (OIG-10-001)
Appendix 7
Management Response




Material Loss Review of TeamBank, National Association   Page 50
(OIG-10-001)
Appendix 7
Management Response




Material Loss Review of TeamBank, National Association   Page 51
(OIG-10-001)
Appendix 8
Major Contributors to This Report




Michael J. Maloney, Director, Fiscal Service Audits
Maria V. Carmona, Audit Manager
Ronda R. Richardson, Auditor in Charge
Horace A. Bryan, Auditor
Gerald H. Kelly, Auditor
A. Michelle Littlejohn, Referencer
Jaideep Mathai, Referencer
Regina A. Morrison, Referencer




Material Loss Review of TeamBank, National Association   Page 52
(OIG-10-001)
Appendix 9
Report Distribution


   Department of the Treasury

       Deputy Secretary
       Office of Strategic Planning and Performance Management
       Office of Accounting and Internal Control

   Office of the Comptroller of the Currency

       Comptroller of the Currency
       Senior Advisor—OIG/GAO Liaison

   Office of Management and Budget

       OIG Budget Examiner

   Federal Deposit Insurance Corporation

       Chairman
       Inspector General

   United States Senate

       Chairman and Ranking Member
       Committee on Banking, Housing, and Urban Affairs

       Chairman and Ranking Member
       Committee on Finance

   U.S. House of Representatives

       Chairman and Ranking Member
       Committee on Financial Services

   U.S. Government Accountability Office

       Acting Comptroller General of the United States




   Material Loss Review of TeamBank, National Association    Page 53
   (OIG-10-001)
